HHS/OIG, Audit -"Audit of the Medicaid Drug Rebate Program in Wyoming,"(A-07-03-04015)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program in Wyoming," (A-07-03-04015)
May 21, 2003
Complete
Text of Report is available in PDF format (1.23 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to evaluate whether the
Wyoming Department of Health Pharmacy Unit (the State agency) had established
adequate accountability and internal controls over the Medicaid drug rebate
program.   We found the State agency lacked sufficient internal controls
with regard to the Medicaid drug rebate program as required by federal rules
and regulations.  The State agency did not develop or follow adequate
policies and procedures with regard to the drug rebate program and its management
by Affiliated Computer Services, a company the State agency contracted with
to administer the drug rebate program.  Further,
the State agency did not have reasonable assurance that drug rebate balances
and collections reported to the Centers for Medicare and Medicaid Services
were accurate.  We believe that the State agency could increase its drug
rebate collections by using the State Agencys hearing mechanism to resolve
disputes.  Moreover, the lack of sufficient internal controls increased
the risk for fraud, waste, or abuse of drug rebate program funds.